Nos. 19-267, 19-348
INTHE

~upreme C!Court of tbe mlniteb ~tates
OUR LADY OF GUADALUPE SCHOOL,

Petitioner,
V.

AGNES DEIRDRE MORRISSEY-BERRU,

Respondent.
ST. JAMES SCHOOL,

Petitioner,
V.

DARRYL BIEL, AS PERSONAL REPRESENTATIVE OF THE
ESTATE OF KRISTEN BIEL,

Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 27th day of September, 2019, I caused three copies of the Brief of Amici
Curiae Church of God in Christ, Inc. and Union of Orthodox Jewish Congregations of
America in Support of Petitioners to be served by third-party commercial carrier on the
counsel identified below, and caused an electronic version to be transmitted to the
counsel identified below, pursuant to Rule 29.5 of the Rules of this Court. All parties
required to be served have been served.

Eric C. Rassbach

Joseph M. Lovretovich
Cathryn G. Fund
Andrew S. Pletcher
JMLLAW
5855 Topanga Canyon Blvd
Suite 300
Woodland Hills, CA 91367
(818) 610-8800
jml@jmllaw.com
cathryn@jmllaw.com
andrew@jmllaw.com

THE BECKET FUND FOR RELIGIOUS

LIBERTY

1200 New Hampshire Ave, NW
Suite 700
Washington, DC 20036
(202) 955-0095
erassbach@becketlaw.org
Counsel for Petitioners in Nos. 19-267
and 19-348

Counsel for Respondents in Nos. 19-267
and No. 19-348

2

